Department of Homeland Security
   Ofﬁce of Inspector General



   U.S. Citizenship and Immigration Services' 

Progress in Modernizing Information Technology





OIG-09-90                               July 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       July 13, 2009


                                          Preface

The Department of Homeland Security Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the strengths and weaknesses of the Information Technology
modernization for U.S. Citizenship and Immigration Services. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, and
a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Contents/Abbreviations




Executive Summary ............................................................................................................... 1 

Background ............................................................................................................................ 2 

Results of Audit ..................................................................................................................... 6 

           Business Transformation Showing Progress.............................................................. 6 

           Future Concerns for Business Transformation ........................................................ 15 

           IT Management Strengthened .................................................................................. 27 

           IT Management Challenges Remain........................................................................ 31 

           Conclusion ............................................................................................................... 38 

           Recommendations .................................................................................................... 39 

Management Comments and OIG Analysis......................................................................... 39 



Appendixes
     Appendix A:             Objective, Scope, and Methodology..................................................... 43
     Appendix B:             Management Response to Draft Report................................................ 45
     Appendix C:             Major Contributors to the Report ......................................................... 53
     Appendix D:             Report Distribution ............................................................................... 54

Abbreviations
     BSS                     Biometric Storage System
     CIO                     Chief Information Office
     DHS                     Department of Homeland Security
     EA                      Enterprise Architecture
     EDMS                    Enterprise Document Management System
     FY                      Fiscal Year
     IPT                     Integrated Project Team
     OIG                     Office of the Inspector General
     OIT                     Office of Information Technology
     OMB                     Office of Management and Budget
     SA                      Solutions Architect
     SIMS                    Secure Information Management Service
     TPO                     Transformation Program Office
     USCIS                   U.S. Citizenship and Immigration Services
Contents/Abbreviations




Figures
  Figure 1   USCIS “As Is” Benefits Business Process ............................................. 2

  Figure 2   USCIS Organizational Structure ............................................................ 4 

  Figure 3   TPO Organizational Structure ................................................................ 7 

  Figure 4   Transformation Governance Structure ................................................... 8 

  Figure 5   Transformation Phases with Timeframes as of March 2008................ 10 

  Figure 6   USCIS Pilots and Proof-of-Concept..................................................... 11 

  Figure 7   Process Engineering Efforts Since 2007 .............................................. 22 

  Figure 8   OIT Staffing Levels - December 2008 ................................................. 31 


Tables
  Table 1    DHS Homeland Security Program Performance Measures.................. 19 

  Table 2    FY 2007 Transformation Program Performance Measures.................. 19 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      In 2005, U.S. Citizenship and Immigration Services (USCIS)
                      embarked on an enterprise-wide program to transform its fragmented,
                      paper-based business process to a flexible and efficient process
                      supported by an integrated technical environment. In November
                      2006, we reported that USCIS had not finalized an approach for
                      implementing the transformation, had not centralized information
                      technology (IT) staff, and placed IT infrastructure upgrades on hold.

                      We conducted a follow-up audit to our 2006 report to determine
                      USCIS’ progress in implementing IT transformation initiatives.
                      USCIS has established a structure to manage transformation
                      initiatives, finalized acquisition and funding strategies, and
                      established an approach to deploy new business and IT capabilities.
                      In addition, USCIS has implemented pilot programs to test a selection
                      of these capabilities. However, pilot success has been restricted by
                      ineffective planning and limited implementation reviews. Business
                      process reengineering efforts needed to support the transformation are
                      incomplete, and stakeholder participation levels have fluctuated,
                      resulting in inconsistent business and IT involvement.

                      USCIS has strengthened overall IT management by restructuring its
                      Office of Information Technology (OIT) and realigning field IT staff
                      under this structure. Further, OIT has improved IT governance
                      functions and issued guidelines for local IT development. However,
                      the Chief Information Officer (CIO) has been impeded by insufficient
                      staffing and ineffective IT budget authority. In addition, although
                      USCIS has made improvements to its IT infrastructure, current efforts
                      are stalled for lack of funds.

                      We are recommending that USCIS: communicate its transformation
                      approach to stakeholders; include stakeholder participation in
                      defining requirements; assess pilot program results; develop an IT
                      staffing plan; communicate IT development guidelines; and provide
                      the CIO budget and investment authority for all USCIS IT
                      initiatives. Such actions will be critical to support increases in
                      benefits-processing workloads that may result from proposed
                      immigration reform legislation.


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 1
Background
                     Upon its inception on March 1, 2003, the Department of Homeland
                     Security (DHS) assigned responsibility for delivering citizenship
                     and immigration services to the USCIS. USCIS’ mission is to
                     secure America’s promise as a nation of immigrants by providing
                     accurate and useful information to its customers, granting
                     immigration and citizenship benefits, promoting an awareness and
                     understanding of citizenship, and ensuring the integrity of the
                     immigration system.

                     Each year, USCIS receives more than 7.5 million immigration
                     applications and petitions for a range of benefits, including
                     employment authorization, lawful permanent residency, and
                     naturalization and citizenship. To accomplish its mission, USCIS
                     has more than 15,000 employees and contractor personnel in more
                     than 250 offices worldwide, including asylum offices, application
                     support centers, service centers, forms centers, a National Benefits
                     Center, and a National Customer Service Call Center.

                     Generally, the USCIS immigration benefits process occurs in three
                     stages—Apply, Adjudicate, and Issue—as depicted in Figure 1:




                     Figure 1: USCIS “As Is” Benefits Business Process




  U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 2
                   During the Apply phase, applicants submit paper forms to a USCIS
                   service center or the Lockbox. These forms are checked for errors
                   and then manually entered into a computer system for processing.
                   Once USCIS receives the application fees, fingerprints are collected
                   and other paper documents, such as birth certificates and drivers’
                   licenses, are used to verify applicants’ identity. These documents
                   are kept on file and are manually correlated to the fingerprints and
                   the application number.

                   In Adjudication, a USCIS adjudications officer determines whether
                   an applicant is eligible for benefits under the Immigration and
                   Nationality Act. Adjudication officers review the paper
                   documentation submitted in support of an application or petition,
                   and in some cases, interview the applicant. Adjudication officers
                   schedule interview appointments electronically or by mailing forms
                   to applicants. The supporting forms are often sent from a service
                   center to a local office for processing, sometimes multiple times.
                   Adjudicators examine the evidence received to determine whether
                   the applicant is eligible for the benefit requested. When an
                   application is approved, USCIS produces and issues evidence of that
                   benefit such as a naturalization certificate.

                   USCIS recognizes that its paper-based processes hinder its ability to
                   verify the identity of applicants, efficiently process immigration
                   benefits, and provide other government agencies with relevant
                   information on possible criminals and terrorists. In 2005, USCIS
                   embarked on an enterprise-wide transformation program to
                   transition its fragmented, paper-based operational environment to a
                   centralized and consolidated operational environment, using
                   electronic adjudication. USCIS established the Transformation
                   Program Office (TPO) to oversee all transformation initiatives
                   within USCIS. The transformation program’s mission is to improve
                   customer service and management of customer data by acquiring
                   electronic capabilities and enabling IT. Figure 2 illustrates the TPO
                   organization and its relationship to USCIS leadership and other
                   USCIS offices.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                         Page 3
                           Figure 2: USCIS Organizational Structure

                           Because the transformation efforts rely on IT modernization, TPO and
                           the OIT need to maintain an ongoing partnership to accomplish
                           transformation goals. OIT’s mission is to provide the USCIS
                           enterprise with the IT services to fulfill its mission and achieve its
                           goals and objectives. OIT accomplishes this by providing the
                           appropriate IT infrastructure, governance, and IT processes.

                           In September 2005,1 we reported that inefficiencies in the USCIS IT
                           environment hindered its ability to carry out its immigration benefits
                           processing mission. USCIS’ largely manual, paper-based processes
                           resulted in an ineffective use of human and financial resources to
                           ship, store, and track immigration files. In addition, USCIS
                           adjudicators used multiple, nonintegrated IT systems to review
                           application forms and supporting data, which reduced productivity
                           and data integrity and resulted in the following:

                           •	 A backlog of approximately 1.5 million cases,
                           •	 Tens of thousands of files that were missing or not easily located,
                           •	 Difficulties in verifying the identity of applicants and providing
                              other government agencies with the information necessary to
                              identify criminals and potential terrorists, and
                           •	 Benefits issued to applicants whose eligibility and potential risk
                              to national security were not yet determined.

                           We conducted a follow-up audit in 2006 and reported that, although
                           USCIS had made limited progress toward achieving its long-term



1
    USCIS Faces Challenges in Modernizing Information Technology, OIG-05-41, September 2005.


       U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                 Page 4
                         transformation goals, it continued to face similar challenges.2
                         Specifically, USCIS had not finalized an approach for implementing
                         the transformation, needed to improve strategic planning, had not
                         centralized IT staffing, and had placed IT infrastructure upgrades on
                         hold. Based on our work in 2005 and 2006, we recommended that
                         the Acting Deputy Director, USCIS:

                         1.	 Develop a modernization strategy that includes short- and long-
                             term goals, funding plans, and performance measures to guide
                             USCIS entities in accomplishing their citizenship and
                             immigration services missions.
                         2.	 Complete implementation of plans to centralize IT by placing all
                             USCIS IT employees, budgets, and systems under the CIO
                             authority and control.
                         3.	 Ensure that the centralized CIO operation and its IT
                             transformation plans and systems initiatives are linked to and
                             effectively support the consolidated USCIS strategy.
                         4.	 Review, analyze, and reengineer benefits adjudication activities
                             to help eliminate duplication, transition from paper-based
                             processes, better integrate systems, and provide systems access
                             to the users who need it.
                         5.	 Finalize and implement plans to upgrade and standardize IT
                             hardware and software systems to support reengineered
                             processes and systems integration and access improvement
                             initiatives.
                         6.	 Ensure representation and participation of users at the various
                             levels from across USCIS in all process reengineering and IT
                             transformation activities.




2
 U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology, OIG-07-11,
November 2006.


    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                Page 5
Results of Audit
Business Transformation Showing Progress
                           The Government Performance and Results Act of 19933 holds
                           federal agencies responsible for strategic planning to ensure efficient
                           operations and effective use of resources to achieve mission goals.

                           Since our 2006 report, USCIS has taken a number of steps to
                           improve its transformation program. Specifically, USCIS
                           established a transformation program structure and governance
                           approach. Further, USCIS developed a funding mechanism for its
                           transformation efforts and finalized a plan for acquiring the support
                           services and equipment necessary to implement new business
                           processes and enabling technology. USCIS also completed a
                           concept of operations for transformation and established a strategy
                           for deploying the transformed business capabilities. Finally, USCIS
                           implemented transformation program pilots. These actions have
                           positioned USCIS to better plan and prepare for the next phase in
                           the agency’s transformation and ultimately achieve its goals of
                           enhancing national security and fraud detection, providing timely
                           and accurate customer service, and becoming more operationally
                           efficient.

Transformation Program Structure and Governance Approach Established

                           TPO has restructured its organization to provide a more centralized
                           management of enterprise-wide transformation initiatives. As part
                           of this revised structure, the TPO is headed by a new Senior
                           Executive Service Coordinator to ensure effective transformation
                           program oversight. As shown in Figure 3, the TPO coordinator
                           reports directly to USCIS leadership, which should result in more
                           efficient decision-making, executive-level awareness, and agency
                           commitment to transformation success.




3
    Government Performance and Results Act of 1993 (Public Law 103-62), August 3, 1993.


       U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                  Page 6
                   Figure 3: TPO Organizational Structure

                   The TPO has increased staffing over the past two years to better
                   coordinate and manage transformation efforts. At the time of our
                   audit, 36 of the TPO’s 40 authorized positions were filled. The TPO
                   expects to fill the remaining positions in the second quarter of Fiscal
                   Year (FY) 2009. A number of TPO managers are attending certified
                   project manager training to develop their program management
                   skills.

                   USCIS has established a TPO governance structure as a framework
                   for decision-making, authority, and accountability, and to ensure
                   that all transformation project activities involve agency
                   stakeholders. Within this structure, the TPO has defined roles,
                   responsibilities, oversight, and reporting functions at the DHS level,
                   agency level, and TPO level. Oversight of the entire program at the
                   DHS level falls under the authority of the Investment Review Board,
                   the Joint Requirements Council, and the Enterprise Architecture
                   Board, which approve or review key documents such as the
                   Acquisition Plan, the Program Plan, and the annual Expenditure
                   Plan. To achieve the necessary coordination within the agency, a
                   Transformation Leadership Team provides oversight of the
                   transformation program. The TPO Project Management Team
                   oversees strategic planning, acquisition planning, program
                   management, and day-to-day program activities. These
                   organizational relationships are depicted in Figure 4.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                          Page 7
                       DHS                 Investment Review
                                              Board (IRB)




                                                 Joint               Enterprise
                                             Requirements        Architecture Board
                                                Council                (EAB)



                      USCIS                  Senior Review
                                              Board (SRB)




                     Federal Stakeholder     Transformation        Operations
                       Advisory Board          Leadership         Advisory Board
                          (FSAB)              Team (TLT)              (OAB)



                                           Project Management
                      TPO                      Team (PMT)




                      Integrated Project    Integrated Project     Integrated Project
                          Team (IPT)            Team (IPT)             Team (IPT)



                   Figure 4: Transformation Governance Structure

                   Under the Project Management Team oversight, integrated project
                   teams (IPT) lead specific transformation projects for business,
                   technical, and release activities. Each team includes a cross-
                   functional membership of agency business and IT personnel who are
                   responsible for their assigned project’s plans, schedules, costs, and
                   performance. As of December 2008, 44 representatives from the
                   TPO, Domestic Operations, OIT, National Security and Records
                   Verification, and Refugee Asylum and International Operations
                   were members of the transformation integrated project teams. These
                   representatives are detailed to work with the TPO full-time for a
                   period of 12 to 18 months.

                   The TPO implemented the IPT approach to increase stakeholder
                   involvement and ensure appropriate representation from USCIS
                   subject matter experts. The TPO expects this structure to enhance its
                   existing staff resources by bringing needed skills and expertise from
                   operational directorates and the CIO’s office. In turn, project
                   decisions can be made by members with appropriate business or
                   technical knowledge and who best represent the needs of users who
                   will be affected by new processes and systems. According to TPO
                   management, the use of IPTs over the past two years has proven to be


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 8
                      a successful method for managing large-scale efforts with wide­
                      spread impact on agency processes and systems.

Transformation Funding Secured and Acquisition Plan Finalized

                      Since our 2006 report, USCIS has secured funding for
                      transformation program expenditures. USCIS is almost entirely
                      funded by fees paid by applicants seeking immigration benefits. A
                      new schedule for premium processing fees went into effect in July
                      2007 that incorporates the anticipated costs of the transformation
                      effort. According to TPO leadership, the agency will structure the
                      transformation in a way that can be supported by this new line of
                      funding.

                      TPO also developed an acquisition strategy in January 2007 to
                      provide a road map for the agency to acquire the resources, such as
                      program support and IT services, necessary to implement the
                      transformation. According to TPO management, the strategy
                      reflects industry best practices, employs an incremental
                      development approach, and will use strategic sourcing to acquire the
                      needed capabilities. A key element of the strategy is the reliance on
                      an IT services provider to develop the enabling IT operational
                      environment for the electronic adjudication process. Based on the
                      transformation funding plan and acquisition strategy, management
                      approved a formal Acquisition Plan in October 2007, and awarded a
                      contract for a transformation IT service provider, referred to as the
                      Solutions Architect (SA), in November 2008.

Concept of Operations Completed

                      USCIS completed a concept of operations for transformation in
                      March 2007. This document describes USCIS’ current paper-based
                      business environment and proposed end-state vision. The end-state
                      represents a person-centric, account-based business model that is a
                      clear departure from the current paper-based operations. In this
                      model, USCIS will manage customer accounts and adjudicate
                      benefit requests in an integrated technical environment, resulting in
                      a higher level of service to applicants and a streamlined process for
                      adjudicating all customer benefits. To establish a common vision,
                      feedback was gathered from USCIS management and stakeholders.

                      The agency has used the document as a tool to view how business,
                      information, and technology solutions will interact to support the


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 9
                      future operational environment. With this document, USCIS has
                      gained a common understanding of the person-centric, account-
                      based vision as the foundation for transformation. Once this model
                      is implemented, the agency expects to gain significant benefits, such
                      as greater operational efficiency, improved customer service, and
                      enhanced national security.

Deployment Strategy Established

                      USCIS has developed a multi-year strategy for deploying the
                      capabilities needed to achieve the transformed USCIS business
                      processes and support IT. This strategy calls for creating new
                      business processes and systems incrementally over a six-year period.
                      To establish this approach, the TPO analyzed USCIS’ transactions,
                      such as an application for naturalization, and grouped them into four
                      major lines of business. Based on this analysis and the sequence in
                      which customers usually file for benefits, TPO plans to implement
                      reengineered business processes in increments that correlate with the
                      business lines, beginning with citizenship. The needed capabilities
                      for the remaining three increments will be acquired in stages, as
                      shown in Figure 5.

                        Increment          Business Functions                       Timeframe

                        One          Citizenship                                 FY 2009
                                     (naturalization, military naturalization,
                                     and international adoptions)

                        Two          Immigrant                                   FY 2010 – FY 2011
                                     (permanent residence)

                        Three        Humanitarian                                FY 2012
                                     (refugee, asylum, parole, temporary
                                     protected status)

                        Four         Non-Immigrant                               FY 2013
                                     (non-immigrant workers)

                      Figure 5: Transformation Phases with Timeframes as of March 2008

                      This approach will allow the agency to leverage work done in each
                      increment to better define the requirements and scope for succeeding
                      increments.




   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 10
Transformation Program Pilots and Proof-of-Concept Implemented

                          USCIS implemented three pilot programs and one proof-of-concept4
                          to test the viability of a number of fundamental IT system
                          capabilities required for the transformation. Efforts supporting
                          electronic adjudication processing include the Integrated
                          Digitization and Document Management Program (Digitization),
                          Biometric Storage System (BSS), Enumeration, and the Secure
                          Information Management Service (SIMS) proof-of-concept. These
                          efforts, as shown in Figure 6, have increased awareness of the level
                          of effort required to implement each capability and the long-term
                          funding commitments needed to execute the transformation
                          program.


                                                                           Link
                                                                       Biometrics          Web-based
                                                                                           Web -based
                                 Digitize, Store,        Store
                                                                      Data to Create       Case Mgmt
                                 and View Files      Biometric Data      Unique             System
                                                                         Identity


                                                                      Enumeration
                               Digitization




                                                        BSS Pilot




                                                                                       Proof-of-
                                                                                             -of -
                                                                                       Concept
                                  Pilot




                                                                         Pilot




                                                                                        SIMS
                                                                                       Proof
                                              To Support Electronic Adjudication


                          Figure 6: USCIS Pilots and Proof-of-Concept

                          Integrated Digitization and Document Management Program
                          The Digitization pilot is intended to test the process of scanning files
                          and the adjudicators’ use of digitized images in their day-to-day
                          work. The Digitization pilot was implemented in September 2006 at
                          the Records Digitization Facility, the contractor-led facility that
                          scans documents into electronic format. Files being scanned include
                          a combination of closed files, active files, new Temporary Protected
                          Status applications, and documents filed by applicants for inter-
                          country adoption. As of February 2009, the facility had scanned
                          more than 600,000 paper files.

4
 A proof-of-concept is a methodology to determine whether a product, technology, or information system is
viable and capable of solving an organization’s particular problem.


    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                    Page 11
                   The Digitization pilot also is testing technology for storing
                   electronic files in a single repository called the Enterprise Document
                   Management System (EDMS). The EDMS initiative has enabled
                   USCIS to begin transferring millions of paper records to an
                   electronic format and to provide multiple users with simultaneous
                   access to the digitized electronic files. EDMS has approximately
                   7,900 authorized users. External stakeholders, such as U.S.
                   Immigration and Customs Enforcement, have been able to access
                   EDMS, helping to support requirements within the E-Government
                   Act of 2002.

                   The Digitization pilot has provided several tangible outcomes for
                   USCIS. First, it has given USCIS the opportunity to evaluate the
                   benefits of having multiple-location access to digitized files for
                   adjudication and enforcement purposes. Second, it has provided the
                   basis for the agency’s ongoing digitization effort, which is intended
                   to reduce the burden of managing paper records. Third, it has
                   enabled USCIS to provide adjudicators with electronic copies of
                   files, thus reducing the time spent pulling and shipping files.
                   Finally, the underlying digitization and document management
                   technologies used within the Digitization pilot can be used to
                   develop new capabilities for the integrated operational environment.

                   Biometric Storage System
                   BSS was designed to provide a way to store, retrieve, and reuse
                   biometric data. The capture of biometric and biographic data at the
                   customer’s initial application, coupled with standards for
                   enumeration and unique identity, are critical elements in USCIS’
                   transformation. Once this capability is implemented, USCIS
                   expects that BSS will improve its biometrics management.
                   Additionally, the storage of biometric data will mean that applicants
                   do not have to appear in person to have new fingerprints taken or to
                   create a new benefit card. These benefits will increase convenience
                   to the customer and reduce processing costs to USCIS.

                   The BSS pilot was placed on hold in spring 2008 while the system
                   was undergoing a complete review by the OIT to determine whether
                   a different application development effort may be required to meet
                   USCIS long-term needs. As of 2009, the pilot is being transitioned
                   to a more centralized approach using an account-based customer
                   profile management service, which will better enable identity
                   management functions.


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 12
                             Enumeration Services
                             Deployed in July 2007, the Enumeration Services pilot is a joint
                             effort by USCIS and the U.S. Visitor and Immigrant Status Indicator
                             Technology (US-VISIT) program.5 The pilot establishes a
                             permanent unique identifier for persons upon their first contact with
                             USCIS when applying for benefits requiring fingerprint collection,
                             such as permanent residence or adoption. Specifically, an
                             enumerator is created upon submission of the applicant’s ten
                             fingerprints and a core set of biographic data. Each time a person
                             submits a subsequent benefit application, the enumerator is used to
                             identify and validate the applicant, as well as to match with previous
                             applications.

                             “Locking in” an applicant’s identity is necessary to ensure the
                             integrity of the benefit system by reducing fraudulent applications
                             and identity theft. In the past, USCIS has associated an alien file
                             (A-file) number to an individual, but that association is not unique
                             because A-files are not created for all types of benefit applications
                             and each person can submit multiple applications. Therefore, it is
                             difficult to ensure that a person who has previously been refused a
                             benefit does not reapply using another name. According to the TPO,
                             the Enumeration Services pilot has proven to be effective in
                             verifying identity because the enumerator establishes an enterprise-
                             wide unique personal identifier.

                             Secure Information Management Service
                             SIMS was deployed in July 2007 to test a web-based case
                             management system using commercial software. This pilot, also
                             known as the Inter-Country Adoptions proof-of-concept, is meant to
                             (1) establish a person-centric view of all individuals involved in an
                             adoption case, (2) migrate to electronic processing, and
                             (3) implement business rules that help standardize case processing
                             and adjudication. SIMS was deployed in two domestic and three
                             international offices and is used by approximately 50 active users to
                             adjudicate adoption cases. Adoption cases were chosen for the pilot
                             because of their relatively low volume workload.

                             One operational objective of SIMS is to better understand the
                             person-centric/account-based management concept of operations.

5
  The US-VISIT program collects, maintains, and shares data on selected foreign nationals entering the United States at
air, sea, and land ports of entry.


     U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                        Page 13
                   This has been achieved through the software’s account structure,
                   which creates a person-centric system. Additionally, this proof-of­
                   concept has verified that an enumerator, the unique identifier for
                   each individual, supports the USCIS person-centric business
                   process. According to the TPO, SIMS is a major step toward
                   implementation of a modern processing model. At the time of our
                   review, adjudicators had processed 71, or 17%, of the 408 active
                   cases using SIMS. As a result, the pilot was successful in meeting
                   one of its primary objectives—to demonstrate adoption case-
                   processing capability using a case management system. TPO
                   expects this proof-of-concept to be a fundamental step in the
                   development of the overall case management solution.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 14
Future Concerns for Business Transformation
                        Previous initiatives to reengineer business processes and modernize
                        technology failed because USCIS had not executed them in an
                        integrated manner with sufficient stakeholder involvement.
                        Although USCIS has made progress in advancing its business
                        transformation, some of these problems persist. Specifically, pilot
                        efforts have been of limited value, process engineering efforts have
                        not been completed, and stakeholder coordination has been limited.

Transformation Pilots Yield Limited Value

                        Office of Management and Budget (OMB) Circular A-130 Revised6
                        encourages agencies to use pilot projects to ensure appropriate
                        technology investment. According to the USCIS Transformation
                        Program Acquisition Plan, program pilots should create IT
                        capabilities that can be used to support the full transformation. Yet,
                        as we reported in November 2006, USCIS had repeatedly developed
                        plans to pilot its transformation business processes and IT systems
                        but had not fully implemented any of those plans. Although USCIS
                        has now implemented three pilot programs to evaluate potential
                        business process and technology solutions, successful execution of
                        these pilots has been limited by ineffective planning, management
                        challenges, insufficient staffing, and limited post implementation
                        performance reviews.

                        Planning for Pilot Projects
                        Transformation management and stakeholders do not have a clear
                        end-state vision for pilot efforts. According to TPO leadership, the
                        future integrated environment will leverage current pilots and the
                        proof-of-concept where appropriate. However, specific plans for
                        which pilot capabilities will be used or integrated are not known.
                        For example, most program managers we spoke to were not aware
                        of the overarching plans for pilot activities beyond the scope of each
                        current pilot phase. Specifically, program managers were not sure
                        how the agency planned to use the pilot capabilities or to what
                        degree each pilot was meeting its expectations and goals.

                        Plans for piloted systems are also contingent on the SA contract
                        solution. Target decommission dates for pilot systems are “to be
                        determined” and depend on the SA’s approach. USCIS encouraged

6
 Transmittal Memorandum 4, Management of Federal Information Resources, November 28, 2000.


    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                             Page 15
                   the SA to use pilot efforts to facilitate the rapid deployment of
                   capabilities. However, the SA is not required to incorporate any of
                   these pilots or the proof-of-concept into its solution. The TPO
                   program managers and stakeholders did not have plans defined for
                   the next phase of work. For example, one TPO manager stated that
                   there are no formal plans for EDMS beyond the current release. At
                   that point, development plans will cease until the SA determines
                   whether the agency should incorporate the pilot concept into its
                   future operating environment.

                   Consequently, plans for the future use of the piloted systems were
                   not effectively communicated within the TPO or articulated among
                   agency stakeholders. Agency stakeholders also question funding
                   and ownership arrangements. For example, the OIT remains unclear
                   as to what proportion of IT expenses will be funded through the SA
                   contract. The Records Division has questions regarding the
                   ownership of pilot systems, such as EDMS, after the SA contract is
                   awarded. Feedback received from field site visits and interviews
                   with business unit management confirmed a high degree of
                   uncertainty regarding the future of the transformation environment.
                   Specifically, a post implementation review of the Digitization pilot
                   in October 2007 stated that users feel that the TPO should do more
                   to provide managers and employees with “bigger picture”
                   information. Users also wish to receive more information about
                   pilot implementation timelines and roadmaps and how they will
                   impact USCIS employees.

                   TPO Management Practices
                   A transformation program overview, dated December 2007, states
                   that the TPO is managing a series of pilot programs that will be
                   integrated into an overall electronic adjudication system. Further, a
                   number of TPO plans state that certain pilots will be a “phased
                   rollout of technology,” with system interfaces and integration
                   planned between primary pilot systems and capabilities. However,
                   the day-to-day management of the pilot programs was difficult
                   during initial releases, due to the TPO’s lack of experience
                   managing pilot programs. As a result, pilot releases experienced
                   delays and systems integration efforts were scaled back, delayed, or
                   postponed until the next phase of transformation.

                   One primary element of transformation systems integration is the
                   use of an existing OIT tool, the Enterprise Service Bus. This tool
                   was to be used to establish a channel of communication to enable


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 16
                   data sharing between multiple transformation pilot systems. For
                   example, integration between SIMS and EDMS was originally
                   planned for September 2007 to facilitate a more streamlined
                   electronic workflow process using digitized files. However, the
                   SIMS interface with EDMS was not implemented as planned, and is
                   currently not scheduled for future releases.

                   Additional interfaces using the Enterprise Service Bus were planned
                   for September 2008 to establish a connection for two other pilot
                   systems to the payment processing center (the Lockbox Service).
                   This integration point would allow payment records and application
                   data from the Lockbox Service to be shared with transformation
                   pilot systems such as EDMS. However, the Lockbox interface was
                   delayed due to changes in requirements and schedule. As a result,
                   the planned integration between the Lockbox and the two pilot
                   systems was delayed until a deployment release scheduled for spring
                   2009.

                   Transformation program management faced challenges during pilot
                   implementations due to ineffective planning and lack of experience
                   with project management practices. Specifically, some pilot
                   programs did not fully employ end-to-end system lifecycle practices
                   such as completing requirements gathering for system capabilities.
                   Rather, pilot program estimates were overly optimistic. For example,
                   an EDMS pilot release was delayed by over two months due to a lack
                   of detailed end user requirements for system functionality, as well as
                   security and privacy issues. Similarly, TPO management has stated
                   that certain processes, such as OIT’s IT procurement procedures,
                   were not well understood or consistently followed during early phases
                   of pilot planning. For example, several pilot program managers were
                   initially unaware of the timeframe of paperwork required to complete
                   an IT procurement request. As a result of these challenges,
                   transformation pilot and proof-of-concept programs encountered
                   schedule delays, scope changes, and reductions in capability
                   integration.

                   Finally, day-to-day management practices varied across each pilot
                   program. Although the TPO established an Increment Management
                   Division at the end of FY 2006 to oversee pilot programs, formal
                   project management practices were lacking. For example, there was
                   no formal process for comprehensive status reporting. Instead, pilot
                   status reporting was often done independently by the contractor
                   supporting the pilot rather than by the TPO lead. In February 2008,
                   TPO instituted a standardized process for weekly status reporting


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 17
                   using industry practices to capture and track project schedules, costs,
                   issues, and risks. Prior to this time, program level accountability
                   and awareness of pilot deployment status was lacking.

                   TPO Management Staffing Challenges
                   The TPO leadership stated that ongoing difficulty in hiring and
                   retaining managers within the transformation program contributed to
                   the reliance on contractors during pilot planning and execution.
                   Transformation business and IT stakeholders stated that frequent
                   changes in project managers contributed to a lack of continuity in
                   pilot management. For example, the EDMS pilot initiative has had
                   three different program managers, resulting in a heavy reliance on
                   the Records Division management, who began the digitization
                   effort. Stakeholders said that as a result of such frequent changes,
                   the program managers are not always abreast of current activities
                   and status. Further, as project managers changed positions, the
                   vision for the pilot processes and goals did not always remain the
                   same, resulting in a loss of continuity.

                   Inability to Determine Pilot Success
                   USCIS has not been able to capture enough of the knowledge gained
                   or measure and communicate the successes and failures of the pilots.
                   USCIS has developed performance measures for the transformation
                   programs and the program pilots. However, program pilot efforts
                   were conducted without consistent or timely evaluation, which has
                   compromised the TPO’s ability to leverage work completed or
                   manage future transformation phases of work effectively.

                   Performance Measures Are Defined
                   USCIS has developed high-level performance measures for the
                   transformation program. Additionally, USCIS aligned its
                   transformation program capabilities and goals with USCIS goals, as
                   documented in the Transformation Program Strategic Plan in April
                   2007. Since that time, the transformation program has sought to
                   improve performance management by defining high-level program
                   goals and pilot performance measures. For example, Table 1 shows
                   transformation performance measures established and documented
                   in the DHS Future Years Homeland Security Program.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 18
                             Measure                FY07     FY08   FY09      FY10    FY11         FY12
                    % of USCIS bus
                               business
                                   iness
                                                     0%       5%    62
                                                                    62%%      78
                                                                              78%
                                                                                %      100
                                                                                       100%        100
                                                                                                   100%
                    proce
                    process
                         sses
                           es re
                              reddesigned
                    % of neneww USCIS
                    workrklload re
                                 rece
                                   ceiived and
                    ad
                    adjjudicat
                             cated
                                ed via
                    transfform
                    trans     rme
                                ed proc
                                    proceesses    Baseline    5%     26
                                                                     26%
                                                                       %        62%
                                                                                62%    87%
                                                                                       87%         100
                                                                                                   100%
                    and within USCIS' new
                    cas
                    case e man
                            manage
                                agemment
                    sy
                    syst
                       stem
                          em

                   Table 1: DHS Homeland Security Program Performance Measures

                   Additionally, the Transformation Program Strategic Plan includes
                   17 performance indicators for near-term and long-range evaluation
                   of the transformation program’s success. These indicators evaluate
                   customer satisfaction, process efficiency, system access, and the use
                   of automated capabilities through transformation program efforts.

                   The agency also identified five program-level measures for FY 2007
                   to evaluate the program during the planning phase. Table 2
                   identifies these parameters and the threshold, objective, and actual
                   achievement for each. According to transformation leadership, the
                   TPO achieved all five of its objectives.

                             Performance Measure                    Objective            Achieved

                    1. % adoption cases processed in SIMS      5% of cases            5.4% of cases

                    2. % satisfied with EDMS images            85% satisfaction       89% satisfaction

                    3. % of files submitted electronically     5% e-filed             5% e-filed

                    4. # of agencies accessing EDMS            1 external agency      1 (ICE)

                    5. SIMS system availability                98% availability       100% availability


                   Table 2: FY 2007 Transformation Program Performance Measures

                   At the project level, the TPO developed performance measures for
                   three of the four pilot efforts. Specifically, the TPO defined 21
                   performance measures for SIMS and Enumeration services to
                   evaluate the technology, system usage, user satisfaction, training,
                   communication, and project and change management. Likewise, the
                   TPO identified 22 performance measures for the Digitization pilot,
                   including EDMS.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 19
                          According to TPO leadership, as of 2008, the performance measures
                          are captured in the existing architecture repository and are linked to
                          USCIS strategic goals and the Business Reference Model.7 This link
                          should provide a connection between performance goals and the
                          investments to improve USCIS decision-making abilities. According
                          to the TPO, as the transformation is completed, more specific metrics
                          will be created and deployed. Specifically, the SA plans to include
                          performance measures for future business solution delivery.

                          Pilot Performance Not Evaluated Timely
                          Although pilot performance measures were developed, USCIS has
                          not consistently performed post implementation reviews to
                          determine the impact or success of its IT systems or business
                          processes. OIT management has stressed the importance of
                          conducting reviews after systems are implemented to identify
                          potential issues or improvement opportunities. For example, a wide
                          range of infrastructure impacts may be detected on the network,
                          field servers, and desktops due to the large files transferred over the
                          network for the EDMS system. However, we found that post
                          implementation reviews for EDMS have not occurred since 2007.

                          TPO program managers stated that lessons learned from pilot
                          releases either had not been captured or were yet to be completed.
                          Further, TPO leadership stated there has been no overarching post
                          pilot review, nor is there an enterprise-wide repository to capture or
                          share individual pilot lessons across the program.

                          Regular post implementation reviews were not conducted because of
                          the TPO’s focus on other priorities and the lack of resources to
                          perform them. TPO management stated that reviews had not yet
                          been completed because of the focus on preparing the SA plans. For
                          example, an operational analysis was planned for an EDMS release,
                          but the release date was delayed. Subsequently, the TPO learned
                          that the SA contractor would evaluate EDMS for its potential use as
                          part of the new environment. Thus, the TPO decided that it would
                          be redundant to perform an operational analysis. Without consistent
                          or complete pilot post implementation reviews of pilots,
                          transformation management cannot identify impacts on the current
                          environment or plan improvements for future releases.



7
 A Business Reference Model provides a view of the agency’s lines of business, including its internal
operations and the services it provides to citizens.


    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                  Page 20
                           USCIS has spent $28 million on the transformation pilot programs
                           thus far. Pilot success, however, has been measured by intangible
                           benefits, such as experiences gained, rather than by potential cost
                           savings. TPO leadership stated that the pilots have provided the
                           TPO with experience managing agency-wide initiatives. Pilots have
                           also helped to demonstrate the level of effort and associated costs
                           required to implement the business processes and technologies
                           necessary to meet transformation objectives. For example,
                           experience gained in digitizing files has revealed process intricacies
                           for scanning, storing and viewing electronic files. Additionally, the
                           use of EDMS has illustrated how long it takes to load a digitized file
                           on end-user desktops, as well as the complexities involved in
                           adjudicating cases with digitized files rather than paper. However,
                           two of the four pilot and proof-of-concept efforts have not yet
                           achieved cost savings. For example, in 2007 EDMS estimated
                           benefits were less than 80% of the total estimated life cycle costs,
                           resulting in negative quantitative net benefits. As a result, pilots
                           may be abandoned before they achieve measurable results, such as
                           cost savings or process improvements.

Process Engineering Efforts Not Completed

                           According to OMB Circular A-130 Revised, agencies should
                           simplify or redesign work processes before implementing new
                           technology.8 In 2006, we reported that the lack of an overarching
                           vision led to disparate business process reengineering initiatives that
                           were narrowly focused and were not sufficiently coordinated or
                           completed.

                           Since that time, USCIS has made progress in defining high-level
                           business processes. However, the efforts to date provide only a
                           starting point for transformation business process engineering.
                           Without effective business process reengineering, USCIS risks
                           developing new IT systems that support ineffective and outdated
                           processes.

                           The TPO has taken steps to conduct business process reengineering
                           efforts with a more structured approach. Specifically, the TPO
                           completed a process analysis in early 2007 that examined the “as-is”
                           environment (how existing operations work and perform) and the
                           “to-be” environment (a roadmap for proposed IT initiatives). The
                           resulting Business Case Analysis provided the agency with

8
    Transmittal Memorandum 4, Management of Federal Information Resources, November 28, 2000.


       U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                Page 21
                   alternatives for implementing the TPO’s vision. The primary
                   objectives of the “to be” operations were to lock in an applicant’s
                   identity early in the process; support the electronic submission of
                   applications, appointments, and supporting documentation; and
                   provide tools for USCIS adjudicators to manage workload and
                   analyze case data. The results of this effort were captured in the
                   USCIS Business Reference Model in June 2007. Figure 7 shows
                   these high-level requirements.




                   Figure 7: Process Engineering Efforts Since 2007

                   According to TPO management, these process reengineering efforts
                   helped USCIS select the business process alternative that best met
                   transformation goals. In addition, these efforts provided the agency
                   with tools and information to further develop detailed business
                   process definition and requirements.

                   However, the process reengineering efforts are limited in scope and
                   level of detail. The Increment One Enterprise Segment Activity
                   Roadmap defines high-level requirements based on the business
                   process analysis efforts completed. This document includes each
                   business process segment and its corresponding activities. According
                   to the TPO, the Enterprise Segment Activity Roadmap is a key
                   document that will be used as a guide to develop detailed business
                   and IT services necessary to realize end-to-end electronic business
                   operations. However, most transformation stakeholders stated that it
                   was not detailed enough to drive business process implementation.
                   For example, the document contains high-level, generic business
                   processes for the citizenship process and account access requirements,
                   but does not provide enough detail to sufficiently describe the steps of
                   the adjudication process.


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                         Page 22
                      Business Process Reengineering Next Steps
                      TPO leadership describes the process reengineering efforts to date as
                      only a starting point for the SA and stated that the SA will develop a
                      more complete process definition as part of the transformation effort
                      beginning in FY 2009. As part of this work, the TPO plans to
                      implement process reengineering efforts in phases associated with
                      each increment of work, as outlined in the deployment strategy.
                      Starting with Increment One, Citizenship, the TPO has begun efforts
                      to further define the future account services business concept. For
                      this effort, a working group has been assembled to consider
                      elements of customer-centric processing and individual and
                      organization accounts. For example, the group is currently looking
                      at future business requirements related to setting up an individual’s
                      account and account number.

Stakeholder Participation Limited

                      We reported in 2006 that USCIS users felt disengaged and isolated
                      because technologies were being developed and processes
                      redesigned without their input. Since that time, USCIS has
                      developed several strategies for increasing stakeholder involvement
                      in its transformation planning efforts. One key stakeholder
                      participation approach, established in January 2007, is the use of
                      IPTs to involve business owners and subject matter experts in
                      transformation activities. However, in 2008, transformation
                      leadership stated that the lack of sponsorship continues to be a risk
                      because TPO’s ability to implement transformation is limited by its
                      dependence on agency and stakeholder commitment.

                      Accordingly, the transformation strategy states that the TPO will
                      “proactively engage stakeholders by identifying, understanding, and
                      influencing key individuals or groups to increase change readiness
                      and thereby facilitate a successful implementation.” However, the
                      TPO has not consistently achieved buy-in and agency-wide support.
                      Further, ineffective collaboration between TPO and the OIT has
                      created a growing risk for transformation success.

                      Lack of Consistent Stakeholder Involvement
                      Despite efforts to engage agency stakeholders, the TPO has not been
                      able to obtain consistent membership in working groups, such as
                      IPTs. For example, a SIMS pilot IPT was tasked with identifying
                      requirements. However, the group did not accomplish this task


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 23
                   because members have not attended the meetings consistently.
                   When subject matter experts do not attend, requirements cannot be
                   adequately vetted or finalized.

                   The TPO recognizes that, in the past, field office involvement with
                   transformation planning was limited and largely unsuccessful. To
                   address this issue, in October 2008, TPO developed a
                   comprehensive Stakeholder Outreach Plan, which provides a general
                   overview of transformation stakeholders and the approach for
                   engaging them in transformation. The plan indicates that outreach
                   efforts will include office visits, focus sessions, and general
                   communication to reach a cross-section of senior leadership and
                   employees, informing stakeholders about the transformation and
                   establishing relationships with potential transition managers.

                   TPO and OIT Partnership Needs Strengthening
                   USCIS business units and IT stakeholders are closely aligned in
                   setting the direction and managing the transformation effort;
                   however, collaboration and effective partnership between TPO and
                   the OIT could be improved. TPO and OIT management stated that a
                   difference in their approaches to the transformation has generated
                   ongoing conflict between the two organizations. Prior to 2005,
                   initial transformation efforts resided within the OIT as part of an IT
                   modernization effort. However, as of 2006, the program was
                   restructured as an all-encompassing “business-driven”
                   transformation, meant to incorporate agency-wide business and IT
                   elements. The impact of this change in direction has hindered
                   effective partnership. The establishment of the TPO in 2005 moved
                   control of the transformation effort outside of CIO authority.

                   Although the CIO is closely aligned with the TPO Chief in setting the
                   direction and managing the transformation effort, collaboration and
                   partnership in executing the transformation program has at times been
                   ad hoc or unproductive. The CIO is a member of the Transformation
                   Leadership Team, which provides oversight of the transformation
                   program. According to the Transformation Program Management
                   Plan, the CIO represents the interest of the USCIS technical
                   environment, ensuring the alignment of strategic direction of the TPO
                   and OIT, the development of joint capabilities, and the budget
                   alignment for common efforts. Primary responsibilities of the CIO
                   include advising the TPO on transformation requirements, their
                   impact on current and future technical systems, and necessary
                   changes based on the direction of the technical strategic environment


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 24
                         set by the IT Strategic Plan. However, OIT officials stated that the
                         CIO’s roles and responsibilities are not defined to a level that would
                         support day-to-day execution of the transformation.

                         Further, the CIO stated that conflicting IT direction often requires
                         escalation to agency leadership for resolution. For example, the
                         USCIS IT development life cycle requires that IT developed should
                         accommodate those with disabilities.9 However, TPO pilot systems,
                         such as SIMS, were not originally aware of this requirement. Once
                         the TPO was aware of the requirement, a waiver was requested to
                         deploy the pilot system. However, for the next pilot release, the
                         CIO provided conditions for which pilot systems will meet IT
                         controls and standards. After the SIMS application was developed,
                         the TPO requested a waiver to the requirement.

                         According to TPO and OIT management, the lack of coordination
                         between the two offices has caused delays in decision-making and
                         contract procurements. For example, to extend contract support for
                         the SIMS pilot, the TPO had to obtain OIT approval. However, the
                         CIO would not grant an approval based on unresolved system
                         development testing and reporting requirements. As a result, the
                         TPO elevated the paperwork to agency leadership in order to move
                         forward with the contract.

                         To increase collaboration and alignment, at least three full-time OIT
                         staff members are embedded within TPO. However, the relationship
                         between the TPO and OIT remains a point of contention. The
                         working relationship between the two has evolved on an “as-needed
                         basis” rather than as a steady partnership. This is evidenced by the
                         ad hoc nature of OIT’s involvement in pilot program activities. For
                         example, deployment plans for pilot programs did not include
                         realistic timeframes for procuring IT equipment or services. As a
                         result, pilot initiatives, such as Scan on Demand within the
                         Digitization pilot, were delayed.

                         Additionally, TPO pilot programs did not consistently comply with
                         OIT testing procedures. For example, the OIT recommended
                         independent verification and validation (IV&V) testing of TPO pilot
                         programs early during the testing stage, specifically on the scanning

9
 Section 508 compliance requirements are outlined by the DHS Office on Accessible Systems and
Technology for Web-based Intranet and Internet Information and Applications. Department of Homeland
Security Acquisition Instruction/Guidebook #102-01-001: Appendix B, November 2008.



    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                               Page 25
                   resolution requirements. However, TPO did not comply with such
                   testing for pilot projects during initial pilot phases. Further, the TPO
                   permitted piloted systems to be implemented without completing
                   this step in order to meet schedule demands. In these cases, the OIT
                   has performed testing after initial releases have been deployed or at
                   the end of the pilot increments.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 26
IT Management Strengthened 

                        USCIS has made progress in strengthening IT management to
                        support the agency’s citizenship and immigration services mission
                        and its transformation efforts. Specifically, OIT developed a new
                        organizational structure to facilitate IT services, and it has realigned
                        field IT staff under the CIO. It has also improved IT governance by
                        completing an IT Strategy that aligns its strategic direction with the
                        USCIS Strategic Plan, an Enterprise Architecture (EA) framework
                        to support and guide agency programs and IT investments, and an IT
                        life cycle methodology.

OIT Organizational Restructuring

                        At the time of our audit, a new OIT organization structure was being
                        implemented. This new structure includes a new Chief Technology
                        Officer position. The CIO also plans to align the agency’s classified
                        systems under the Chief Technology Officer to increase focus on IT
                        security efforts. Additionally, the OIT is consolidating the IT
                        Services Engineering and Enterprise Architecture offices into an
                        Enterprise Architecture and Engineering Division to provide
                        systems engineering support through standard tools, guidance, and
                        EA policy and administration. Finally, the existing Chief of Staff’s
                        role was expanded to include IT functions such as capital planning
                        and investment control and earned value management.10 According
                        to the CIO, this organizational structure will better align IT services
                        with USCIS’ strategic goals.

Field IT Staff Realigned

                        According to DHS Management Directive 0007.1,11 the CIO of each
                        DHS component is responsible for managing its IT budgets and
                        resources. We reported in November 2006 that, although USCIS
                        had made progress in realigning its IT employees to report to the
                        CIO, centralization of the remaining IT employees, as well as IT
                        assets and budgets, was on hold pending organizational
                        improvements.

10
   Earned value management is a project management tool that compares completed work to expected

outcomes. 

11
   Department of Homeland Security Management Directive 0007.1, IT Integration and Management, March

2007. 




     U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                              Page 27
                      Since then, the OIT has realigned IT field staff under a centralized
                      OIT organization structure. According to the CIO, 300 IT field staff
                      now report to the CIO through a defined hierarchy within the OIT
                      Service Support Division. This realignment has increased the CIO’s
                      ability to centrally manage staff resources and ensure that field
                      offices follow standard IT policies and procedures.

                      To ensure a smooth transition to the new structure, realigned staff
                      positions, roles, and responsibilities remain the same where possible,
                      and they continue to provide IT services to meet field office user
                      needs. In some cases, program analysts with IT-related duties were
                      reclassified to a different job series on a case-by-case basis to align
                      their duties with their positions. At the time of our audit, a small
                      number of IT positions remained within field business offices
                      outside of the CIO organization. However, the USCIS Acting
                      Deputy Director has instructed USCIS business offices to hire only
                      non-IT staff going forward.

                      The staff realignment has been an effective means to improve the
                      CIO’s oversight of agency IT initiatives. In many instances, this
                      realignment included field staff who were hired to build IT systems
                      to meet local business needs. Although these practices have long
                      been common among USCIS offices, OIT management stated that
                      the realignment effort has decreased local IT development
                      initiatives. As a result, the realignment represents an essential step
                      in establishing centralized IT management.

IT Governance Instituted

                      USCIS OIT has taken steps to improve IT oversight and control of
                      the historically decentralized USCIS IT environment. Specifically,
                      the OIT instituted a governance structure and processes, completed
                      an IT strategic plan, developed an EA framework, and implemented
                      a system life cycle management approach.

                      Governance Structure Developed
                      The USCIS CIO has sought to improve IT governance functions by
                      using agency-wide review boards and processes as a formal method
                      to review IT investments. The governance structure includes DHS-
                      level and USCIS-level review boards to achieve oversight of
                      investments. Supporting processes are in place to ensure that
                      USCIS IT systems development efforts undergo the necessary


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 28
                           review and approval. For example, according to OIT management,
                           requirements for a new IT system or changes to an existing system
                           are vetted through all relevant USCIS business units to reach an
                           agreement on plans and expenditures and must receive approval
                           from the USCIS Change Control Board. This structure ensures that
                           stakeholders are involved, requirements are gathered, and money is
                           spent wisely.

                           The OIT has also implemented a Citizenship and Information
                           Governance Authoring and Retrieval system to maintain USCIS IT
                           policies and procedures associated with IT service requests, change
                           requests, and other IT life cycle related processes or forms. This
                           tool assists OIT staff in drafting new governance policies.

                           IT Strategic Planning Completed
                           According to OMB Circular A-130 Revised, an agency’s IT plan
                           should support its strategic plan and should describe how
                           information resources will be used to help accomplish the agency’s
                           mission.12 We reported in 2006 that OIT had not clearly linked its
                           IT objectives and initiatives with USCIS’ goals to ensure that
                           technical solutions and services meet agency needs effectively.

                           In June 2008, USCIS OIT completed an IT Strategy that aligns its
                           enterprise IT strategic direction with the USCIS Strategic Plan for
                           FY 2008–FY 2010 and the USCIS EA. According to the CIO, each
                           objective in the IT Strategy aligns with one or more of the USCIS
                           strategic objectives. Thus, fulfilling an OIT strategic objective
                           completes a step toward USCIS enterprise strategic objectives. The
                           strategy ensures that the alignment is realized through the use of
                           common elements in the plans, such as vision, mission, and strategic
                           goals and objectives.

                           Currently, OIT is developing an implementation plan for its
                           enterprise IT Strategy, including the formulation of supporting
                           activities for each strategic objective. The CIO expects that these
                           efforts will help steer the supporting activities and provide a basis
                           for future revisions of the IT strategy.




12
     Transmittal Memorandum 4, Management of Federal Information Resources, November 28, 2000.


       U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                Page 29
                         Enterprise Architecture Matures
                         USCIS has developed an EA framework to support and guide
                         agency programs and IT investments. The OIT placed a high
                         priority on developing its EA in alignment with the DHS EA, and
                         created an EA Branch staffed with six full time employees, plus
                         contract support, who serve as architects. According to the CIO, the
                         USCIS EA has matured to a point where it can be populated to
                         support agency programs such as the USCIS transformation.

                         In addition, the transformation program has developed business
                         process tools to complement the USCIS EA. Specifically, the
                         Enterprise Segment Activity Roadmap is a primary transformation
                         document that defines the agency’s business processes to date. The
                         document includes business process activities associated with
                         citizenship benefits processing. According to the OIT, it has been
                         instrumental in assisting with populating the Business Reference
                         Model for the USCIS EA. Collaboration between the TPO and OIT
                         to define the Business Reference Model has been a priority for the
                         past two years. Going forward, OIT will continue to leverage TPO
                         process reengineering efforts to further define the USCIS EA.

                         A third party assessment13 of the USCIS EA found that USCIS has a
                         solid EA framework rated at “maturity level 3,” which means that
                         the EA is capable of meeting business needs. This framework will
                         help ensure that the EA will be sufficiently mature to guide design
                         and development of IT solutions related to the USCIS
                         transformation effort.

                         IT Life Cycle Methodology Established
                         In June 2007, USCIS implemented a formal IT life cycle
                         management approach to be used as a framework for developing and
                         maintaining all IT systems within USCIS. The framework
                         emphasizes the entire life cycle rather than focusing solely on
                         system development. Since the framework was institutionalized, all
                         USCIS technology solution implementations, software development,
                         and infrastructure-related projects must comply with related
                         processes and guidelines. According to the IT System Engineering
                         Branch, this approach has helped OIT to ensure that processes,
                         documentation, and technology adhere to organizational standards
                         and best practices.
13
 MITRE Corporation, “United States Citizenship and Immigration Service Enterprise Architecture
Assessment,” October 17, 2008.



     U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                               Page 30
IT Management Challenges Remain
                      Despite the progress made to improve IT management functions,
                      significant challenges remain for the OIT to carry out centralized,
                      enterprise-wide IT management responsibilities. CIO staffing
                      remains inadequate to administer support and guidance across all
                      USCIS offices, and realigned staff received insufficient support.
                      Further, effectively managing the array of locally developed IT
                      systems has been difficult. Although the CIO has established
                      guidance and tools to help standardize local IT development
                      practices, the agency has yet to achieve effective centralized
                      management of its IT. These challenges must be addressed for the
                      CIO to meet the increasing demands to prepare the IT infrastructure
                      and deliver IT service support for the agency’s transformation
                      program.

CIO’s Staffing Levels

                      OIT staffing remains insufficient to effectively deliver IT services
                      and support. In a 2006 self assessment, the OIT identified the lack
                      of permanent IT staff as its most significant weakness. To address
                      this weakness, the OIT increased its staff from 30 at the time of our
                      2006 audit to 160 in December 2008. Despite these efforts, staffing
                      remains a control weakness, with only about 63% of the 242
                      authorized full time positions filled, as shown in Figure 8.



                          250

                                        242           100%
                          200

                                                                            63%
                          150
                                                               160                Ser

                          100


                           50


                            0
                                   Authorized
                                      auth    Staff      Positions
                                                            filled Filled



                      Figure 8: OIT Staffing Levels – December 2008

                      Staffing in some OIT offices has fallen below a critical level. For
                      example, only about 50% of the IT Service Support Division’s


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 31
                      authorized positions are filled. This division oversees all services
                      support, including systems administration, desktops, servers, service
                      desk functions, and other regulatory activities. The impact of this
                      staffing shortfall is apparent as the office performs day-to-day
                      operations. Staff often work extra hours to meet the division’s daily
                      operation demands, leading to an increase in staff attrition. As a
                      result, this office faces significant challenges to support more than
                      500 field IT personnel and the 4,000 new desktop users added since
                      2007.

                      According to the CIO, although OIT has hired about four staff per
                      month, it has been difficult to recruit qualified staff in a timely
                      manner and retain them. OIT managers attribute recruiting
                      difficulties in part to the complex and lengthy hiring process.
                      According to one IT Director in the field, obtaining a list of potential
                      candidates takes an inordinate amount of time. Further, once the list
                      is received, it often includes candidates who are not well suited for
                      the position. Additional challenges in recruiting stem from an
                      overly competitive market for skilled IT people.

                      Although OIT in headquarters administers the staffing decisions for
                      all field offices, there is no formal, overarching staffing plan. The
                      OIT maintains an informal staffing resource document to track and
                      manage vacancies and recruiting efforts. According to an OIT
                      staffing official, this document enables the CIO to track how the
                      office is progressing toward its target staffing goals. However, the
                      document does not contain a clearly defined strategy with specific
                      actions and milestones for recruiting and retaining qualified full-
                      time IT employees.

Field IT Employees Need Better Support

                      IT personnel realigned to the CIO have not received the support
                      needed for effective and efficient operations. The OIG reported in
                      2006 that IT employees who had moved to the CIO lacked adequate
                      support in some areas. This condition still exists.

                      During this audit, most field IT staff we spoke to stated that they
                      have not been able to execute day-to-day operations efficiently since
                      the realignment. Regional IT staff stated that basic administrative
                      tasks, such as preparing time and attendance records and obtaining
                      approvals for leave requests, are time consuming or confusing. For
                      example, a number of personnel claimed that they must fax, email,
                      and call contacts at headquarters numerous times to obtain the


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 32
                           required approvals for overtime, leave, or training. In addition,
                           obtaining funding or reimbursements for expenses, such as overtime
                           or training, is often time consuming or difficult. To address these
                           concerns, the OIT recently awarded an administrative support
                           contract to assist with day-to-day operations. Contract personnel
                           will be responsible for, among other things, assisting with reports,
                           purchase requests, and general office tasks.

                           Similarly, field IT personnel stated that since realignment, roles and
                           responsibilities are not always clearly documented or understood. In
                           February 2008, a team was formed within a field office to pilot the
                           OIT’s local application development concept. However, the IT staff
                           involved in the pilot stated that the creation of the team has caused
                           confusion. Specifically, the local IT staff included in the team had
                           not been provided with the necessary guidelines and tools to
                           perform their new job functions at the time of our review. Further,
                           new roles and responsibilities for the pilot had not been effectively
                           communicated. As a result, the team was unclear on the day-to-day
                           activities for which it will be held accountable.

                           Lastly, field staff and TPO staff experience delays in completing IT
                           projects due to the length of time it takes for OIT to complete the IT
                           service request process. Several TPO managers stated that the ITSR
                           process is lengthy and cumbersome. Because headquarters receives
                           service requests as part of the IT life cycle management process, it is
                           important that it reply promptly. According to the IT Service
                           Support lead at headquarters, there is no set timeframe for
                           completing the service request process. A request may stay open
                           longer if a contract transaction is required to complete a purchase.
                           This situation is compounded due to a significant increase in
                           requests from 2006 and 2008. As a result, it is difficult to manage
                           the number of requests in a timely manner. OIT management stated
                           that they are working to improve the process and establish a way for
                           users to see the status of their service requests. However, the
                           timeframe for finishing this effort was delayed because of budget
                           cuts.

USCIS Has Not Achieved Centralized IT Management

                           The Clinger-Cohen Act of 199614 requires that CIOs review the IT
                           budget within their agency or department to effectively manage IT
                           systems and initiatives as strategic investments. Further, DHS MD

14
     Formerly the Information Technology Management Reform Act of 1996.


       U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                 Page 33
                   0007.1 requires component CIOs to effectively manage and
                   administer all component IT resources and assets. Although the
                   USCIS OIT has made progress in establishing its IT governance
                   functions, IT systems development efforts remain, in part, outside
                   the purview of the CIO.

                   The USCIS CIO does not have effective budgetary authority over IT
                   investments. Although the CIO was granted IT budget authority by
                   DHS-level management policies, consistent execution of that
                   authority within the agency has been difficult to achieve. Field
                   offices and business units with direct fee revenue or appropriated
                   funds have not historically complied with budgetary control
                   processes. Many OIT personnel stated that business representatives
                   are too heavily involved in system and infrastructure change
                   decisions, while the CIO does not have consistent investment
                   decision-making authority.

                   The CIO is also challenged to enforce compliance with IT system
                   development control mechanisms, such as testing. The CIO finds
                   this to be most challenging for large-scale IT programs, such as the
                   transformation program, which are managed outside the OIT. In
                   August 2008, the CIO identified the autonomy of the IT efforts of
                   the USCIS transformation program and its exemption from normal
                   USCIS controls as an emerging internal control deficiency. For
                   example, the OIT requested that the transformation pilot systems
                   undergo IV&V testing, as prescribed in the IT life cycle
                   management process. The CIO also requested that the TPO consider
                   the IT landscape for long-term, agency-wide scanning functionality.
                   Instead, transformation program managers acquired agency
                   leadership approval to “bypass” the IV&V process. Although this
                   remains a concern, OIT management stated that compliance for
                   IV&V testing among agency programs, such as transformation, is
                   gradually improving.

                   TPO and OIT management expressed concern that systems within
                   the USCIS transformation could grow out of sync because of the
                   independent and divergent directions being pursued by the TPO.
                   For example, two separate efforts to implement an enterprise
                   requirements tool are underway within the OIT and TPO. The OIT
                   is currently standing up a requirements toolset called Korvair, with a
                   contractor in place ready to test the first project. However, this
                   endeavor may be in conflict with a duplicative requirements toolset
                   being implemented as part of the transformation SA contract.
                   According to the TPO, the contractor is developing a requirements


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 34
                   toolset. As a result, the OIT may have to change its current
                   direction, leading to wasted time and money on planning and
                   training for Korvair. TPO management stated that efforts are
                   underway to address these issues.

                   The continuation of decentralized IT program efforts has led to a
                   growing number of local systems that are beyond the CIO’s current
                   budget or staffing level to manage effectively. Although OIT still
                   does not know the total number of local IT systems, USCIS field
                   offices have reported thousands of applications that were developed
                   “in-house.” Historically, these systems were developed to improve
                   workflow of local business processes, and staff rely upon them to
                   perform mission operations. However, because of the ad hoc
                   manner in which these systems were created, field employees often
                   did not properly document development efforts, making it difficult
                   for local staff or headquarters OIT to support the systems.

                   IT management challenges are further compounded when local
                   systems compromise agency-wide IT infrastructure standards or
                   security protocols. For example, one field office developed an
                   application which was operating on unlicensed software and was
                   compromising USCIS’ network infrastructure. Further, this
                   application was developed without OIT support or authorization,
                   resulting in a system operating without agency standard testing,
                   infrastructure, or maintenance. After learning of the application and
                   its associated infrastructure issues and security risks, the CIO
                   assumed control of it to stabilize and sustain its operation for
                   restricted use by the field office. Such efforts by the CIO are part of
                   a long-term strategy to transition field systems to a more stable and
                   secure environment in accordance with federal and agency
                   guidelines and standards.

                   Guidance for Local IT Development
                   Rather than banning local IT systems that are sometimes necessary
                   for day-to-day operations, the OIT is providing new policies,
                   guidelines, and tools to standardize local IT development practices
                   and improve management of existing systems. According to Service
                   Engineering Division management, the OIT now has a more focused
                   approach to manage local IT development efforts. For example, IT
                   development efforts performed outside the OIT must adhere to the
                   IT life cycle management process, governing body reviews, and
                   tighter security policies. According to the OIT, such efforts may
                   increase standardization of development efforts while decreasing


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 35
                      security and privacy concerns. This approach will be used as a
                      temporary step to improve centralized management of local systems
                      until new, integrated solutions are deployed with the transformation
                      program.

                      The OIT is also planning to pilot specific application development
                      programs in field offices to provide a set of policies, guidelines, and
                      tools to standardize IT system development efforts. To that end, the
                      Service Engineering Division began a pilot in 2008 for a Standard
                      Lightweight Operational Programming Environment, or SLOPE.
                      This pilot will provide a common operating environment that can be
                      used to develop small to mid-range databases and applications that
                      align with the USCIS’ EA. Additionally, the OIT has continued to
                      refine its Enterprise Service Bus as a method, or tool, for systems to
                      communicate and share data. This will promote integration and
                      reduce the complexity of new interfaces required to meet USCIS
                      modernization goals. The OIT also is implementing new tools such
                      as the Person-Centric Query System and the Standard Management
                      Analysis Reporting Tool. Both systems are meant to enable
                      personnel to digitally compare applicant data between systems and
                      to view the most up-to-date information on any individual within the
                      system.

IT Infrastructure Improvements Underway

                      USCIS has improved the IT infrastructure over the past three years;
                      however, funding cuts have stalled current efforts. At the time of
                      our review, the OIT was implementing IT upgrades for all 236 sites
                      to deliver standardized desktops and increased network bandwidth.
                      During FY 2008, USCIS deployed more than 5,000 standardized
                      workstations to all USCIS domestic offices and most overseas
                      operations, which represent approximately 20% of the enterprise
                      workstation population. In addition, USCIS replaced and
                      standardized the operating systems of all servers that run USCIS’
                      applications in offices across the enterprise.

                      One primary area of focus in IT upgrades is the creation of a
                      network environment to support new applications. The OIT planned
                      to complete network improvements for 243 of 300 U.S. domestic
                      offices and 31 of 71 overseas operations. However, these plans
                      were delayed because of budget cuts. As a result, upgrades in only
                      25 locations were completed as of January 2009. Without the
                      necessary funding, the completion date of the remaining network
                      upgrades is unknown.


   U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                           Page 36
                   Finally, the OIT is installing an InfoPass Kiosk, a digital system that
                   allows customers to make appointments in advance. As of January
                   2009, OIT had installed 65 of the 119 kiosks, which are now the
                   source of about 13% of all appointments. These installations are
                   helping USCIS move away from paper-based operations.

                   Upgrades Needed for Future Transformation Phases
                   The OIT is conducting a full assessment to determine what changes
                   must be made to the current IT environment to adequately prepare
                   for the transformation. Infrastructure upgrades for the
                   transformation include updating equipment, upgrading circuits, and
                   improving system support. However, according to the OIT,
                   considerable work remains to identify specific infrastructure
                   requirements. OIT is collaborating with a TPO working group to
                   review and assess the infrastructure needs of the proposed
                   transformation solution. This working group also intends to
                   evaluate what is feasible based on the current USCIS infrastructure.
                   This collaboration will help the OIT decide where added
                   infrastructure is needed and how to manage the effort as it moves
                   forward. However, at the time of our review, costs and funding
                   plans for infrastructure upgrades were not finalized.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 37
Conclusion
                     Over the past two years, USCIS has elevated the transformation
                     program to an agency-wide priority to more efficiently and
                     effectively meet its mission of administering the nation’s
                     immigration laws. The agency has developed a strategy to establish
                     a new operational environment, which will be deployed over a six-
                     year period. This approach is made possible by a new fee structure.
                     USCIS has also strengthened overall IT management and improved
                     IT governance.

                     However, the agency has made limited progress toward achieving
                     long-term transformation goals to improve operations by deploying
                     integrated, electronic benefits processing capabilities. USCIS has
                     spent more than $117 million since 2005 to develop updated
                     business processes and test the underlying technologies needed for
                     electronic operations. Additionally, the agency is now embarking
                     on a new $14.5 million IT services provider contract to further
                     define the operational environment and enabling capabilities.
                     However, business process engineering efforts have yet to be
                     completed, and pilot programs have been implemented without the
                     completion of operational performance reviews. In addition,
                     stakeholder understanding of and participation in the transformation
                     program has been limited, staffing remains a weakness, and USCIS
                     has not achieved effective centralized management of IT.

                     Since USCIS was established in 2003, the agency has encountered a
                     significant backlog of cases which impedes its ability to adjudicate
                     the increasing number of applications received each year, thus
                     delaying the delivery of citizenship and immigration benefits to
                     customers. In addition to addressing current operation needs,
                     USCIS must also prepare for potential increases in benefits
                     processing workloads that could result from proposed immigration
                     reform legislation. Consequently, transformation will be critical to
                     support the agency’s current workload, address the ongoing backlog,
                     and prepare for potential future increases in demand for immigration
                     benefits processing.




  U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                          Page 38
Recommendations
                     We are closing all recommendations in our 2006 report and are
                     recommending that the Acting Deputy Director, USCIS:

                     1.	 Develop an updated transformation approach, strategy, or plan to
                         communicate end-state business processes and IT solutions to
                         stakeholders.
                     2.	 Develop and implement a plan to achieve sufficient and
                         consistent stakeholder participation in process reengineering and
                         requirements definition activities.
                     3.	 Complete evaluations to document the results and lessons
                         learned from the pilot and proof-of-concept programs.
                     4.	 Develop a USCIS OIT staffing plan that includes specific
                         actions and milestones for recruiting and retaining fulltime
                         employees.
                     5.	 Communicate guidelines and procedures for acquiring,
                         developing, and managing IT solutions, as defined by the DHS
                         and USCIS CIOs, to stakeholders.
                     6.	 Provide the CIO agency-wide budget and investment review
                         authority for all USCIS IT initiatives and system development
                         efforts.




Management Comments and OIG Analysis
                     We obtained written comments on a draft of this report from the
                     Acting Deputy Director, U.S. Citizenship and Immigration Services.
                     We have included a copy of the comments in their entirety at
                     Appendix B.

                     In the comments, the Acting Deputy Director concurred with our
                     recommendations and agreed that USCIS faces challenges
                     modernizing IT. The Acting Deputy Director, however, also stated
                     concern that the report does not sufficiently acknowledge
                     transformation progress made since our prior review in 2006. We
                     have reviewed the Acting Deputy Director’s comments and made
                     changes to the report as appropriate. The following is an evaluation
                     of the comments provided by USCIS.

                     In response to recommendation 1, the Acting Deputy Director stated
                     that USCIS has fully addressed the recommendation. The Acting


  U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                          Page 39
                   Deputy Director elaborated on a number of initiatives to
                   communicate plans and to achieve internal and external stakeholder
                   participation. Specifically, a communications plan has been
                   established, which includes an agency-wide approach for using
                   multiple communications strategies to prepare stakeholders for
                   reengineered business processes. Further, commitment to agency-
                   wide communications was demonstrated through a broadcast by the
                   director in 2007 to encourage employee involvement in
                   transformation efforts. Finally, efforts to engage field offices and
                   key partners in transformation were evident during the SA’s Request
                   for Proposal stage, as meetings were conducted with key internal
                   and external partners. Going forward, the SA plans to employ a
                   change management and communications plan that includes
                   frequent and continuous communication between USCIS and
                   stakeholders. Consequently, the Acting Deputy Director requested
                   that recommendation 1 be closed.

                   We have reviewed the steps USCIS has taken to implement a
                   communications approach, ensure knowledge sharing, and to engage
                   stakeholders in transformation program efforts. We recognize the
                   progress made in this area since our prior review. However, USCIS
                   has not developed an updated transformation approach. This
                   approach should include business processes and IT solutions once
                   they are defined. At the time of our review, an up-to-date,
                   comprehensive transformation approach did not exist. USCIS
                   executives stated that such an approach will likely be established
                   once current work with the SA progresses.

                   Once an updated transformation approach is defined, USCIS should
                   communicate this plan to its stakeholders, explaining how the end-
                   state program will improve business processes and IT to support
                   USCIS’ final transformation solution.

                   In response to recommendation 2, the Acting Deputy Director
                   requested that this recommendation be closed, stating that a
                   governance approach has been established. The Acting Deputy
                   Director stated that USCIS has engaged representatives from partner
                   agencies and communities to collaborate and provide feedback and
                   expects these efforts to foster awareness and buy in on
                   transformation program initiatives.

                   We recognize that USCIS has recently updated the transformation
                   governance structure to improve management of program initiatives.
                   Specifically, this approach is intended to engage subject matter


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 40
                   experts and external stakeholders in transformation business
                   requirements and process reengineering efforts through working
                   integrated project teams. However, this approach was being
                   established at the conclusion of our audit review and was not yet
                   implemented during pilot and proof-of-concept execution.
                   Consequently, maintaining adequate stakeholder involvement and
                   consistent participation was a challenge, creating the need for more
                   formal, integrated team structures. We expect that USCIS’ newly
                   formed approach will help to ensure that future process
                   reengineering and requirements definition activities will achieve
                   more effective stakeholder involvement. We look forward to
                   receiving USCIS’ plan to achieve sufficient and consistent
                   stakeholder participation in process reengineering and requirements
                   definition activities and the results of the plan’s implementation.

                   In response to recommendation 3, the Acting Deputy Director
                   agreed to complete a “lessons learned” document about the SIMS
                   proof-of-concept and the EDMS pilot. In addition, USCIS agreed
                   that all future proof-of-concepts and pilots would entail lessons
                   learned to support the transformation process. We are encouraged
                   by these plans and look forward to receiving results and lessons
                   learned about the proof-of-concept and pilot.

                   In response to recommendation 4, the Acting Deputy Director stated
                   that OIT is currently 75% staffed with expectations to reach 90% by
                   the end of FY 2009 and 100% by the end of FY 2010. The agency
                   is using hiring incentives, recruitment tools, and special
                   appointments to fill vacancies and retain staff. Additionally, the
                   agency is participating in job and career fairs and broadening
                   recruitment into non-traditional USCIS job series. We are
                   encouraged by the efforts outlined and look forward to receiving
                   documented staffing plans with specific actions and milestones for
                   recruiting and retaining fulltime employees.

                   In response to recommendation 5, the Acting Deputy Director
                   outlined steps taken to improve governance and management of
                   agency-wide IT. Additionally, the Acting Deputy Director stated
                   that USCIS will continue to work toward improving IT support for
                   programs and stakeholders. We believe the steps outlined in
                   USCIS’ response will help to improve agency awareness and
                   understanding for acquiring, developing, and managing IT solutions.
                   We look forward to receiving progress updates about future efforts
                   to ensure guidelines and procedures for acquiring, developing, and



U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 41
                   managing IT solutions are communicated and enforced to
                   stakeholders.

                   In response to recommendation 6, the Acting Deputy Director stated
                   that the CIO has representation on the USCIS Senior Review Board,
                   the Leadership Alignment Team, the Transformation Leadership
                   Team, and the IT Systems Change Control Board. Additionally, the
                   CIO maintains involvement in the Transformation Program’s
                   Working Integrated Project Teams and Stakeholder Information and
                   Participation meetings. We recognize the position of the CIO within
                   the agency’s various governing bodies and believe these are steps in
                   the right direction to achieve agency-wide budget and investment
                   review authority. We look forward to receiving evidence of the
                   CIO’s continued, active review of all USCIS IT initiatives and
                   system development efforts.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 42
Appendix A
Objective, Scope, and Methodology


                       The objective of this review was to determine whether USCIS is
                       implementing its transformation initiatives in efficient and effective
                       manner and had addressed our prior report recommendations.

                       We researched and reviewed federal laws and executive guidance
                       related to USCIS’ immigration benefits processes and systems. We
                       reviewed recent Government Accountability Office and OIG reports
                       to identify prior findings and recommendations. We coordinated
                       with the USCIS Ombudsman to ensure that a review it was
                       conducting did not overlap with our objectives. In line with our
                       compliance follow-up responsibilities, we evaluated documents that
                       USCIS provided from September to December 2008, including
                       updated action plans and milestones, on activities to address our
                       November 2006 report recommendations. Using this information,
                       we designed a data collection approach, consisting of focused
                       interviews and document analysis, to conduct our follow-up review.
                       We developed a series of questions and discussion topics for our
                       interviews.

                       Subsequently, we conducted interviews at USCIS headquarters and
                       field offices and gathered supporting documentation to meet our
                       audit objectives. At headquarters we interviewed senior USCIS
                       business leaders, including the Deputy Director and Chief Financial
                       Officer, to discuss their roles and responsibilities related to USCIS
                       business and IT transformation. We were particularly interested in
                       transformation planning, business process reengineering,
                       requirements gathering, and pilot program implementation activities.
                       We collected numerous documents from these offices about USCIS
                       accomplishments, current initiatives, and future plans for
                       transformation.

                       We met with the USCIS CIO to obtain updates to the agency’s IT
                       modernization efforts and supporting organizational structure. We
                       interviewed OIT personnel to learn about the efforts to centralize IT
                       personnel and to upgrade and standardize IT hardware and software.
                       OIT managers discussed accomplishments in implementing desktop
                       upgrades, while OIT employees discussed the office’s involvement
                       with transformation and newly implemented IT standard tools. To
                       support their comments, these officials provided copies of OIT
                       reorganization plans, as well as documentation regarding IT systems,
                       budgets, and operations.

                       We visited four USCIS field locations where we toured facilities and
                       interviewed senior managers, IT specialists, and other employees.


    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 43
Appendix A
Objective, Scope, and Methodology


                       We discussed the IT staff centralization progress, local IT
                       development practices, and user involvement and communications
                       with headquarters concerning transformation. We gathered
                       information on current IT development initiatives and learned about
                       system requirements specific to field offices. We sought to evaluate
                       existing practices for managing IT in the field and the extent to
                       which headquarters provides tools for field users. Where possible,
                       we obtained reports and other materials to support the information
                       provided during the interviews.

                       We conducted our audit from September 2008 to December 2008 at
                       USCIS headquarters in Washington, D.C., and at USCIS field
                       locations in Lincoln, Nebraska; Lee’s Summit, Missouri; Kansas
                       City, Missouri; and Dallas, Texas. We performed our work
                       according to generally accepted government auditing standards.
                       Those standards require that we plan and perform the audit to obtain
                       sufficient appropriate evidence to provide a reasonable basis for our
                       findings and conclusions based on our audit objectives. We believe
                       that the evidence obtained provides a reasonable basis for our
                       findings and conclusions, based on our audit objectives.

                       The principal OIG points of contact for this audit are Frank Deffer,
                       Assistant Inspector General for Information Technology Audits, and
                       Richard Harsche, Director of Information Management. Major OIG
                       contributors to the audit are identified in Appendix D.




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 44
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 45
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 46
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 47
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 48
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 49
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 50
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 51
Appendix B
Management Response to Draft Report




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 52
Appendix C
Major Contributors to the Report


       Information Management Division

       Richard Harsche, Division Director
       Kristen Evans, Audit Manager
       Shannon E. Frenyea, Auditor
       Melissa Keaster, Auditor
       Anna Tyler, Auditor
       Amanda Strickler, Referencer




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 53
Appendix D
Report Distribution


       Department of Homeland Security

       Secretary
       Deputy Secretary
       Chief of Staff for Operations
       Chief of Staff for Policy
       Acting General Counsel
       Executive Secretariat
       Chief Information Officer
       Deputy Chief Information Officer
       Acting Chief Financial Officer
       Acting Chief Procurement Officer
       Director, GAO/OIG Liaison Officer
       United States Citizenship and Immigration Services, Acting Deputy Director
       United States Citizenship and Immigration Services, Chief Information Officer
       Assistant Secretary for Policy
       Assistant Secretary for Public Affairs
       Assistant Secretary for Legislative Affairs

       Office of Management and Budget

       Chief, Homeland Security Branch
       DHS OIG Budget Examiner

       Congress

       Congressional Oversight and Appropriations Committees, as appropriate




    U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                            Page 54
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
